<html>
<title> - MARKUP OF H. RES. 316, PROVIDING FOR THE EXPENSES OF CERTAIN COMMITTEES OF THE HOUSE OF REPRESENTATIVES IN THE 117TH CONGRESS, AND COMMITTEE RESOLUTION 117-13, A RESOLUTION TO APPROVE FRANKED MAIL ALLOWANCES FOR COMMITTEES FOR THE 117TH CONGRESS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                MARKUP OF H. RES. 316, PROVIDING FOR THE 
                 EXPENSES OF CERTAIN COMMITTEES OF THE 
                 HOUSE OF REPRESENTATIVES IN THE 117TH 
                 CONGRESS, AND COMMITTEE RESOLUTION 117-
                 13, A RESOLUTION TO APPROVE FRANKED 
                 MAIL ALLOWANCES FOR COMMITTEES FOR 
                 THE 117TH CONGRESS

=======================================================================

                                 MARKUP

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2021

                               __________

      Printed for the use of the Committee on House Administration
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on the Internet:
         http://www.gpoinfo.gov/committee/house-administration
         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-947                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
G.K. BUTTERFIELD, North Carolina         Member
PETE AGUILAR, California             BARRY LOUDERMILK, Georgia
MARY GAY SCANLON, Pennsylvania       BRYAN STEIL, Wisconsin
TERESA LEGER FERNANDEZ, New Mexico

 
MARKUP OF H. RES. 316, PROVIDING FOR THE EXPENSES OF CERTAIN COMMITTEES 
 OF THE HOUSE OF REPRESENTATIVES IN THE 117TH CONGRESS, AND COMMITTEE 
RESOLUTION 117-13, A RESOLUTION TO APPROVE FRANKED MAIL ALLOWANCES FOR 
                   COMMITTEES FOR THE 117TH CONGRESS

                              ----------                              


                        THURSDAY, APRIL 15, 2021

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 12:34 p.m., via 
Webex, Hon. Zoe Lofgren [chairperson of the Committee] 
presiding.
    Present: Representatives Lofgren, Butterfield, Aguilar, 
Scanlon, Leger Fernandez, Davis, Loudermilk, and Steil.
    Staff Present: Jamie Fleet, Democratic Staff Director; 
Khalil Abboud, Deputy Staff Director; Dan Taylor, General 
Counsel; David Tucker, Parliamentarian; Brandon Jacobs, 
Legislative Clerk; Peter Whippy, Communications Director; 
Natalie Young, Press Secretary; Tim Monahan, Minority Deputy 
Staff Director; Caleb Hays, Minority General Counsel; Jen 
Daulby, Minority Republican Staff Director; and Janet Schwalb, 
Minority Professional Staff.
    The Chairperson. The Committee on House Administration will 
come to order.
    Good afternoon, everyone. I would like to thank the members 
of the Committee for joining us today. As we begin, I want to 
note that we are holding this hearing in compliance with 
regulations for remote committee proceedings pursuant to House 
Resolution 8.
    Generally, we ask Committee members to keep their 
microphones muted when not speaking so that we can limit 
background noise. Members will need to unmute themselves when 
seeking recognition or when recognized for their five minutes 
of questions if there are questions.
    I want to remind my colleagues to please keep your cameras 
on at all times, even if you need to step away for a moment. 
Please do not leave the meeting or turn your camera off. And I 
would like also to remind you that the regulations governing 
remote proceedings prohibit us from participating in more than 
one committee proceeding at the same time.
    At this time, I ask unanimous consent that all members have 
five legislative days in which to revise and extend their 
remarks and have any written statements be made part of the 
record.
    Hearing no objections, so ordered.
    For this part of the Committee proceedings, this business 
meeting, we will consider House Resolution 316, the primary 
committee expense resolution for the 117th Congress, and 
Committee on House Administration Resolution 117-13, to approve 
franked mail allowances for committees.
    Since the 104th Congress when the House adopted a biennial 
committee funding process, the House is required to adopt a 
committee expense resolution to provide funding for House 
committees. Today we will consider the resolution for the 117th 
Congress.
    The interim funding authority we are currently operating 
under expires on April 22, 2021. In general, we provided 
committees with a 5-percent increase over amounts provided in 
the last Congress. A few committees requested less than a 5-
percent increase, and we have accommodated those requests. We 
have provided increases above 5-percent to certain committees 
to provide the specific resources they require.
    Throughout this process, we have endeavored to work with 
the minority and with all of our committees, being mindful of 
the very real restraints we face due to amounts previously 
appropriated to provide for committee funding. I am glad that 
the Ranking Member and I were able to reach agreement on the 
resources provided to this Committee, as reflected in H. Res. 
308.
    As I have stated during our committee funding hearings, I 
believe that an area of vital concern to the House as an 
institution is having a strong oversight capability. It is 
imperative that our committees rebuild the institutional 
capability to conduct robust and comprehensive oversight. I 
will note that, even with the increases contained in this 
resolution, many committees have not returned to funding levels 
which were provided in the 111th Congress, over one decade ago. 
I will remind my colleagues that the Committee reserves the 
right at any time in the future to ask chairs and ranking 
members of any committee to come back to us and discuss how 
committee funds are being used or to resolve any disagreements 
between the majority and the minority. In addition, we have 
included language in the resolution consistent with previous 
committee funding resolutions to provide the Committee with the 
authority, unless waived, to review the use of funds made by 
committees during the first session of this Congress.
    We are also considering today Committee on House 
Administration Resolution 117-13, which provides nominal 
amounts for the incidental franking requirements of committees. 
The amounts provided in the resolution are the same amounts 
provided over the last several years.
    I wish to thank everyone for all their work to ensure that 
the Committee accomplishes one of its most important 
responsibilities that we face: ensuring our committees have the 
resources to accomplish the necessary work of the House of 
Representatives on behalf of the American people.
    I would now recognize our Ranking Member for any opening 
remarks that he may wish to make.
    Mr. Davis.
    Mr. Davis. Thank you, Madam Chair.
    And as I have noted before, I wish we could have had this 
markup a little earlier. I really do appreciate the majority 
for working with us on the committee funding issues. I believe 
the underlying committee funding resolution is a step in the 
right direction and will allow the House to increase its 
oversight capacity. I would like to get assurance from the 
chairperson that any allocation from the reserve fund must be 
done in concurrence with the ranking member or be considered in 
a Committee meeting, as we agreed to in the last Congress.
    The Chairperson. That has been our policy in the past and 
will continue to be in the future.
    Mr. Davis. Much appreciated, Madam Chair. I appreciate the 
working relationship we developed on this, and I look forward 
to working with you and the committees in the future if more 
funds are needed out of that reserve fund.
    As I noted in our hearing on this, it is about so much more 
than how much money each House committee should receive. It is 
a reflection on our priorities and our responsibilities as a 
legislative branch of the greatest and most powerful country in 
the world.
    Committees are one of the major pillars of this 
institution. It is where so much of our critical work gets 
done, which is why I believe taxpayers deserve a thorough 
review of the budget request committees are submitting. My hope 
was that the funding process would have been done in a more 
transparent and thoughtful way. Oversight of committee budgets 
is a responsibility given to this Committee that I take very 
seriously, as do our Members. And I am hopeful next year we can 
spend a little more time reviewing these budgets and also 
ensure committee budgets are approved in a timely manner.
    But as I said, I am glad we can come together on this. I 
appreciate the Chairperson's willingness to incorporate some of 
our feedback. Madam Chair, I support this resolution. With the 
understanding that we will continue to work together to make 
necessary adjustments through the reserve fund on an as-needed 
basis just, again, as we did last Congress.
    Again, I thank you for your cooperation and the cooperation 
of the majority and their staff.
    And I yield back.
    The Chairperson. Very good. I now call up House Resolution 
316.
    Without objection, the first reading of the resolution is 
dispensed with.
    Without objection, the resolution is considered as read and 
open for amendment at any point.
    [The resolution follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Does any member wish to be recognized 
regarding House Resolution 316?
    Seeing none, it is now in order to consider the resolution. 
I move that House Resolution 316 be reported favorably to the 
House.
    All those in favor will please indicate by saying aye.
    Are there any opposed? If so, say no.
    And in the opinion of the chair, the motion is agreed to 
unanimously, and House Resolution 316 is ordered reported 
favorably to the House, and, without objection, the motion to 
reconsider is laid on the table.
    I now call-up Committee on House Administration Resolution 
117-13.
    [The resolution follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Does any member wish to be recognized 
regarding this resolution?
    Seeing none, the question is on approving Committee on 
House Administration Resolution 117-13.
    All in favor, please say aye.
    Are there any opposed? If so, say no.
    In the opinion of the chair, the ayes have it and the 
resolution is agreed to, and, without objection, the motion to 
reconsider is laid upon the table.
    Without objection, the staff is authorized to make any 
technical and conforming changes.
    And, without objection, this Committee meeting will stand 
adjourned. I remind our Members that we have a separate check-
in for our very important hearing at one o'clock with the 
Inspector General for the United States Capitol Police that I 
am sure everyone will want to participate in.
    So we need to leave this markup, and I will see everyone at 
one o'clock for our hearing.
    We are adjourned.
    [Whereupon, at 12:43 p.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
